                             SOCIAL SECURITY
                                      July 19, 2004

The Honorable E. Clay Shaw, Jr.
Chairman, Subcommittee on Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Shaw:

Thank you for your interest in the Social Security Administration’s disability programs.
In a January 27, 2004 letter, you requested that we review allegations made in a letter
from a former medical consultant that the Chicago Regional Office may have
manipulated its calculation of the Disability Determination Services net accuracy rate by
discouraging medical reviewers from finding errors. You also requested an evaluation
of the degree to which the Disability Determination Services net accuracy rate
performance indicator is being manipulated or has the potential to be manipulated by
employees of the Social Security Administration. The results of our review are
presented in the enclosed report.

My office is committed to eliminating fraud, waste, and abuse in the Social Security
Administration’s operations and programs. If you have any questions concerning this
matter, please call me or have your staff contact H. Douglas Cunningham, Assistant
Inspector General for Congressional and Intra-Governmental Liaison, at
(202) 358-6319.

                                         Sincerely,




                                         S
                                         Patrick P. O'Carroll, Jr.
                                         Acting Inspector General


Enclosure

cc:
Jo Anne B. Barnhart, Commissioner
Martin H. Gerry, Deputy Commissioner for Disability and Income Security Programs
James F. Martin, Chicago Regional Commissioner
              SOCIAL SECURITY ADMINISTRATION      BALTIMORE MD 21235-0001
CONGRESSIONAL RESPONSE
       REPORT
 Social Security Administration
   Chicago Regional Office’s
Disability Determination Services
        Net Accuracy Rate

           A-07-04-24094




            July 2004
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                                                Background
OBJECTIVES

The objectives of our review were to determine whether (1) evidence exists to support
allegations that the Social Security Administration (SSA) Chicago Regional Office (RO)
manipulated its Disability Determination Services (DDS) net accuracy rate by
discouraging reviewers from finding errors and (2) the DDS net accuracy rate
calculation process is vulnerable to manipulation.

BACKGROUND

SSA assures the quality of initial State disability determinations by reviewing a random
sample of allowances and denials from each State. A random, stratified sample of initial
allowances and denials is selected from each State by an automated sample selection
process at the time of DDS input to the National DDS System. The basic design is to
obtain a sample of 70 allowances and 70 denials per quarter per State. Sample cases
are sent to the Office of Quality Assurance and Performance Assessment Disability
Quality Branch (DQB) in each region for quality assurance review. The review process
replicates the DDS’ disability determination process to the extent possible. The review
team consists of a DQB examiner and one or more medical consultants. Physicians
performing medical reviews of disability determinations must always evaluate and rate
the sufficiency of medical evidence in the file; current impairment severity and duration;
and when applicable, current residual functional capacity, onset, ending and cessation
dates; and diary actions.1

The quality assurance review process results in the calculation of DDS net accuracy,
which is defined as the percentage of correct initial disability determinations. The net
accuracy rate is based on the net error rate, which is defined as the number of
corrected deficient2 cases with changed disability decisions, plus the number of
deficient cases that are not corrected within 90 days from the end of the calendar
quarter, divided by the number of cases reviewed. See Appendix C for an overview of
the quality assurance review process for initial disability determinations.

In a letter dated January 27, 2004, Congressman E. Clay Shaw, Jr., asked the Office of
Inspector General to review the allegations made in a letter from a former medical




1
    Program Operations Manual System, GN 04441.110.
2
    A deficient case is one where the disability decision is either incorrect or based on insufficient evidence.



SSA Chicago RO’s DDS Net Accuracy Rate (A-07-04-24094)                                                    1
consultant that the Chicago RO may have manipulated its calculation of the net
accuracy rate by discouraging medical reviewers from finding errors in DDS disability
determinations.3 Congressman Shaw requested an evaluation of the degree to which
the DDS net accuracy rate performance indicator is being manipulated or has the
potential to be manipulated by employees at SSA. See Appendix B for the scope and
methodology of our review.




3
  The medical consultant’s contract was terminated in August 2003 for exhibiting behavior that was
prohibited by the terms of the contract. Specifically, the contract provided for removal from duty for
“disorderly conduct, use of abusive or offensive language, quarreling, intimidation by words or actions, or
fighting. Also, participating in disruptive activities which interfere with the normal and efficient operations
of the Government.”


SSA Chicago RO’s DDS Net Accuracy Rate (A-07-04-24094)                                                   2
                                                               Results of Review
Our review did not identify evidence to support allegations that the Chicago RO
manipulated its DDS net accuracy rate. Furthermore, the DDS net accuracy rate
calculation does not appear to be vulnerable to manipulation because of existing
management controls that are in place over the net accuracy rate calculation.

MEDICAL CONSULTANT ALLEGATIONS

In a letter to Congressman E. Clay Shaw, Jr., a medical consultant formerly under
contract with the Chicago RO made five specific allegations regarding activities at the
Chicago RO that could result in an inaccurate calculation of the DDS net accuracy rate.
To determine if the allegations were valid, we conducted interviews with Chicago RO
staff and medical consultants currently under contract with the Chicago RO. We also
reviewed the policies and procedures in place at the Chicago RO for the review process
resulting in the net accuracy rate calculation. The following presents the former medical
consultant’s allegations and the results of our review of each allegation.

ALLEGATION NUMBER 1: Medical consultants who find few or no medical errors in
DDS decisions are awarded more contract hours than those who find many medical
errors.

      According to staff at the Chicago RO’s Center for Disability, the number of contract
      hours awarded to a medical consultant is based on the amount of work available, the
      medical consultant’s schedule, and the medical consultant’s prior work performance
      in the Region.4 The Center for Disability staff also stated that the number of errors a
      medical consultant identifies in his or her reviews of disability determinations does
      not impact how contract hours are awarded and data on the number of errors
      medical consultants find in their reviews are not maintained by the RO. Since data
      on the number of errors medical consultants identify in their reviews does not exist,
      we could not determine if there was a basis for this allegation. However, during our
      review no evidence came to our attention that would indicate that contract hours are
      awarded to a medical consultant based on the number of errors identified in previous
      reviews of disability determinations.

ALLEGATION NUMBER 2: To avoid negative consequences for finding medical errors
in DDS decisions, medical consultants select only easy and fast cases to review.

      The Center for Disability staff admitted that in the past, there were some instances of
      medical consultants who attempted to identify and select cases that were less
      difficult for review. We were unable to determine why certain medical consultants
      attempted to select only easy and fast cases for review. However, as of Fiscal Year
      (FY) 2004, medical consultants do not have a choice in what case they will review,
4
    The Center for Disability is responsible for the oversight of medical consultants.



SSA Chicago RO’s DDS Net Accuracy Rate (A-07-04-24094)                                   3
    because the Disability Case Adjudication and Review System (DICARS)5 has a list
    of cases from which medical consultants must select the oldest case to review.
    Since the selection is electronic, the ability to select only easy or fast cases is
    eliminated.

ALLEGATION NUMBER 3: Medical consultants are instructed not to use certain terms
or phrases in their narratives on cases.

    Medical consultants are instructed to use language that is supported by medical
    evidence in the case file. Accordingly, the Center for Disability staff will instruct a
    medical consultant to remove language from a narrative when it reflects a personal
    opinion that is not supported by medical evidence. For example, medical
    consultants should not use subjective terms, such as “malingering” or faking
    symptoms unless they are quoting from a medical report in which the examining
    physician uses such a term.

ALLEGATION NUMBER 4: The medical consultant was instructed by an administrator
of the Regional Office not to find medical errors.

    We interviewed five medical consultants currently under contract with the Chicago
    RO to determine if there was a basis for this allegation. All five medical consultants
    stated that they had never been given instructions not to find errors.

ALLEGATION NUMBER 5: Occasionally, SSA management insists that physicians
come up with a certain medical conclusion, even when the medical evidence does not
support this conclusion.

    We asked the five medical consultants we interviewed if they were asked to arrive at
    a medical conclusion that was not supported by medical evidence. All five medical
    consultants stated that they had never been asked to make unsupported medical
    conclusions. Furthermore, random samples of medical consultants’ cases are
    selected for quality review by the Center for Disability and the review is performed by
    an employee that had no prior involvement in the case. With the absence of
    collusion, this separation of duties in the review process would identify unsupported
    medical conclusions. According to staff at the Center for Disability, quality reviewers
    and medical consultants might disagree on a medical conclusion; however, they
    either discuss the disagreement until it is resolved or refer the case to a lead medical
    consultant for resolution.

We also compared the Chicago Region’s net accuracy rate to the rates for other regions
for FYs 2001 through 2003. We found that the net accuracy rates for the Chicago
Region did not differ significantly from the rates of other regions. In addition, the rank of

5
  DICARS is the legacy system supporting business processes around the quality review of sampled DDS
determinations. DICARS functionality supports, among other things, receipt and assignment of cases to
reviewers in DQB, folder tracking, and edited input of review data. Medical consultants in the Chicago
Region began using DICARS in FY 2004.


SSA Chicago RO’s DDS Net Accuracy Rate (A-07-04-24094)                                          4
the Chicago Region’s net accuracy rates as compared to other regions varied during the
period under review, which would discount any sustained net accuracy rate
manipulation. These comparisons, along with the above facts, make it unlikely that the
Chicago Region manipulated data to improve its net accuracy rate. See Appendix D for
our comparison of national and regional net accuracy rates.

VULNERABILITY OF NET ACCURACY RATE TO MANIPULATION

We found that it would be difficult to manipulate the data used to calculate net accuracy
because of the controls in place for the review process resulting in the net accuracy
calculation. Given these controls, it would require a substantial amount of collusion
among SSA employees and/or medical consultants for data to be manipulated. We
found no evidence of collusion during our review. The following is a summary of the
controls in place over the net accuracy rate calculation.

   • Cases included in the net accuracy rate calculation are reviewed by at least two
      staff including a DQB examiner and a medical consultant.

   • Cases are randomly selected for a quality review by the Center for Disability and
      the review is performed by a policy specialist with no prior involvement with the
      cases.

   • All cases with disability determination errors are reviewed by a DQB team leader
      before being returned to the DDS for correction.

   • DQB team leaders review a random sample of cases where no errors are
      identified before the cases are released for effectuation of the determination.

   • If disagreements about the disability determinations in cases occur throughout
      the review process, other medical consultants, DQB team leaders, or DQB
      management review the cases.

In addition to the work performed for this review, the Office of the Inspector General’s
Performance Indicator Audit: DDS Net Accuracy Rate-Allowances and Denials
Combined (A-15-04-14074) is currently in process. This audit will address critical
controls over the data generation and calculation processes for the net accuracy rate,
including tests of DICARS.




SSA Chicago RO’s DDS Net Accuracy Rate (A-07-04-24094)                               5
                                                              Conclusion
We found no evidence to support allegations that the SSA Chicago RO manipulated its
DDS net accuracy rate by discouraging reviewers from finding errors. Furthermore, the
DDS net accuracy rate calculation does not appear to be vulnerable to manipulation
because of existing management controls that are in place over the net accuracy rate
calculation.




SSA Chicago RO’s DDS Net Accuracy Rate (A-07-04-24094)                          6
                                    Appendices
Appendix A – Acronyms

Appendix B – Scope and Methodology

Appendix C – Quality Assurance Review Process for Initial Disability
             Determinations

Appendix D – Net Accuracy Rates – Fiscal Years 2001-2003




SSA Chicago RO’s DDS Net Accuracy Rate (A-07-04-24094)
                                                                    Appendix A

Acronyms
            DDS            Disability Determination Services

            DICARS         Disability Case Adjudication and Review System

            DQB            Disability Quality Branch

            FY             Fiscal Year

            MC             Medical Consultant

            NDDSS          National Disability Determination Services System

            OIG           Office of the Inspector General

            OQA            Office of Quality Assurance and Performance Assessment

            POMS           Program Operations Manual System

            RO             Regional Office

            SSA            Social Security Administration




SSA Chicago RO’s DDS Net Accuracy Rate (A-07-04-24094)
                                                                       Appendix B

Scope and Methodology
We collected and analyzed information specific to the concerns raised by Congressman
E. Clay Shaw, Jr., regarding the determination of the net accuracy rate in the Chicago
Region. To achieve our objectives, we:

   •   Reviewed the previously issued Office of the Inspector General (OIG) report
       Performance Measure Review: Reliability of the Data Used to Measure Disability
       Determination Services Decisional Accuracy (A-07-99-21007) and work
       performed for the ongoing Performance Indicator Audit: DDS Net Accuracy Rate-
       Allowances and Denials Combined (A-15-04-14074).

   •   Reviewed Program Operations Manual System (POMS) GN 04440.119,
       04441.110, and 04441.806 for policies and procedures for medical consultants
       and POMS DI 30005.001 and 30005.005 for policies on quality reviews.

   •   Interviewed staff at the Chicago Regional Center for Disability, Disability Quality
       Branch, and Contracting Office and medical consultants currently under contract
       to gain an understanding of how disability determination reviews are performed,
       medical consultants’ responsibilities, and how the net accuracy rate is calculated.

   •   Interviewed a Chicago Regional Office of General Council attorney to learn the
       status of current protests by the medical consultant for termination and non-
       renewal of contract.

The Social Security Administration operating components reviewed were the Chicago
Regional Office of Quality Assurance and Performance Assessment and the Chicago
Center for Disability. We performed our review in the Chicago Regional Office in
Chicago, Illinois, and the OIG Office of Audit in Kansas City, Missouri, from March
through June 2004. We conducted our review in accordance with Quality Standards for
Inspections issued by the President’s Council on Integrity and Efficiency.




SSA Chicago RO’s DDS Net Accuracy Rate (A-07-04-24094)
                                                                                     Appendix C
  Quality Assurance Review Process for Initial Disability
  Determinations1
  DDS Inputs                          A                            B
Decision in State
    System

                                   Review                     DQB
                                    Data                    Examiner
Data Uploaded to                   Entered                  Completes
    NDDSS                            Into                    Review                            C
                                   DICARS

       NDDSS

                               DICARS Uploaded                               No          Decision
                               to OQA Mainframe                DDS                       Issued to   A
Automated Sample                                            Deficiency?                  Claimant
Selection Process
                                                             Yes            Sample
                                    OQA
Case Selected for                 Mainframe
    Review                                                  DQB Team
                                                              Lead
                                 Net Accuracy
                                   Reports
  Case Data
 Downloaded to                                                               No
   DICARS                                                      DDS
                                                            Deficiency?

                                                             Yes
Case Assigned to
 DQB Examiner
                                                            Returned to
                                                             DDS for
                                                            Correction
      Preliminary          A
        Review

                                                                                        No

 Case Sent to MC                                                             Yes
                                                            Returned to                  Decision
                                                            DQB in 90                    Change?
                                                              Days?
        MC             A
       Review                                                                            Yes
                                          B                  No


                                                            Error for Net
      DDS             No                                     Accuracy
   Deficiency?                    DQB Examiner
                                                                                         Decision
                                                                                         Corrected
                                                                   A
      Yes

       Lead MC                                                                                 C


  1
      See Appendix A for acronyms used in this flowchart.

  SSA Chicago RO’s DDS Net Accuracy Rate (A-07-04-24094)
                                                                            Appendix D

Net Accuracy Rates – Fiscal Years (FY) 2001-2003

                                   FY 2001                  FY 2002          FY 2003
         Region                                                         1
                                Rate        Rank         Rate     Rank      Rate    Rank1
    National Average           96.2%                    96.4%               96.1%
    Boston                      96.8          3          96.1       6        96.7     2
    New York                    95.6           9         95.6      10        95.6    8
    Philadelphia                96.5          5          97.4      1         96.1    5
    Atlanta                     96.4          6          96.1       6        96.1    5
    Chicago                     95.7          8          97.2      2         96.6    3
    Dallas                      96.6          4          96.4      5         96.5    4
    Kansas City                 97.7           1         97.1       3        95.9     7
    Denver                      96.9          2          96.6      4         97.7    1
    San Francisco               95.3          10         95.7       9        94.8    10
    Seattle                     96.2           7         96.0       8        95.5     9




1
    Regions with the same rank had the same net accuracy rates.

SSA Chicago RO’s DDS Net Accuracy Rate (A-07-04-24094)
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.

                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.

                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
